No. 19-624
In the

Supreme Court of the United States
MARK GRAF AND JOHN USTICH,
Petitioners,
v.
HYUNG SEOK KOH, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Seventh Circuit

REPLY BRIEF

James G. Sotos
Counsel of Record
Jeffrey R. Kivetz
Daniel J. Mcginnis
The Sotos Law Firm, P.C.
141 West Jackson Boulevard,
Suite 1240A
Chicago, Illinois 60604
(630) 735-3300
jsotos@jsotoslaw.com
Counsel for Petitioners

293366

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  iii
INTRODUCTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I.

There Is Undoubtedly Disarray Among The
Circuit Courts On The Scope Of Johnson
Review And This Case Presents An Excellent
Vehicle To Resolve The Confusion . . . . . . . . . . . . 2

II. The Seventh Circuit’s Declination Of
Interlocutory Review Effectively Defeated
Petitioners’ Qualified Immunity-Based Right
To Avoid Trial Absent A Clearly Established
Constitutional Violation . . . . . . . . . . . . . . . . . . . . . 5
III. The District Court’s Factual Findings And
The Videotaped Interrogation Are The
Only Evidence Required To Determine
Whether The Seventh Circuit Should
Have Exercised Jurisdiction To Review
Petitioners’ Entitlement To Qualified
Immunity . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
IV. The Absence Of Any Particularized Case
Law Prohibiting Petitioners’ Interrogation
Tactics Necessitates This Court’s Review . . . . . 8

ii
Table of Contents
Page
V.

This Court Should Resolve The Inter-Circuit
Conflict On The Reviewability Of The Denial
Of A Qualified Immunity Assertion Premised
Upon A State Court’s Fully Informed And
UntaintedIntervening Decision To Admit
Evidence  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

iii
TABLE OF CITED AUTHORITIES
Page
CASES
Ashcroft v. al-Kidd,
563 U.S. 731 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . 9, 11
Barry v. O’Grady,
895 F.3d 440 (6th Cir. 2018) . . . . . . . . . . . . . . . . . . . . . 4
Behrens v. Pelletier,
516 U.S. 299 (1996)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Carlson v. Green,
446 U.S. 14 (1980)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Chavez v. Martinez,
538 U.S. 760 (2003) . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
City and Cty. of San Francisco v. Sheehan,
135 S. Ct. 1765 (2015)  . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Exxon Shipping Co. v. Baker,
554 U.S. 471 (2008) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Johnson v. Jones,
515 U.S. 304 (1995)  . . . . . . . . . . . . . . . . . . . . . . . passim
Mullenix v. Luna,
136 S. Ct. 305 (2015) . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Murray v. Earle,
405 F.3d 278 (5th Cir. 2005) . . . . . . . . . . . . . . . . . . . . 11

iv
Cited Authorities
Page
Plumhoff v. Rickard,
572 U.S. 765 (2014)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Romo v. Largen,
723 F.3d 670 (6th Cir. 2013) . . . . . . . . . . . . . . . . . . . 2, 4
Scott v. Harris,
550 U.S. 372 (2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Walton v. Powell,
821 F.3d 1204 (10th Cir. 2016) . . . . . . . . . . . . . 2, 3, 4, 7
White v. Pauly,
137 S. Ct. 548 (2017) . . . . . . . . . . . . . . . . . . . . . . . 1, 8, 9
Wray v. City of New York,
490 F.3d 189 (2d Cir. 2007) . . . . . . . . . . . . . . . . . . 11, 12
Zivotofsky ex rel. Zivotofsky v. Clinton,
566 U.S. 189 (2012)  . . . . . . . . . . . . . . . . . . . . . . . . . 9, 10
STATUTES AND OTHER AUTHORITIES
U.S. Const. Amend. V  . . . . . . . . . . . . . . . . . . . . . . 5, 11, 12
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Arielle Herzberg, “The Right of Trial by Jury Shall
Be Preserved”: Limiting the Appealability of
Summary Judgment Orders Denying Qualified
Immunity, 18 U. Pa. J. Const. L. 305 (2015) . . . . . . . 3

v
Cited Authorities
Page
Lloyd C. Anderson, The Collateral Order Doctrine:
A New “Serbonian Bog” and Four Proposals
for Reform, 46 Drake L. Rev. 539 (1998) . . . . . . . . . . 3
Mark R. Brown, Qualified Immunity and
Interlocutory Fact Finding in the Courts
of Appeals, 114 Penn. St. L. Rev. 1317 (2010) . . . . . . . 3
Tobias Bar r ing ton Wolff, Scott v. Har r is
and the Future of Summary Judgment,
15 Nev. L.J. 1351 (2015)  . . . . . . . . . . . . . . . . . . . . . . . . 3

1
INTRODUCTION
The circuit courts have inconsistently applied two
diametrically opposed interpretations on the scope of
Johnson v. Jones, 515 U.S. 304 (1995), one which prohibits
and one which requires interlocutory review of inferences
drawn from undisputed facts. Contrary to Koh’s insistence,
the presence of an uncontested videotaped interrogation
and the district court’s entirely uncontested findings
regarding a few matters not contained on the videotape,
make this case the perfect vehicle to clarify the scope of
interlocutory review of the denial of a claim to qualified
immunity.
Koh’s further failure to identify a single case
that would have placed Petitioners on notice that
their interrogation tactics were unconstitutional, in
conjunction with this Court’s repeated warnings that
“clearly established law should not be defined at a high
level of generality,” necessitates reversal of the district
court’s denial of Petitioners’ qualified immunity defense.
See White v. Pauly, 137 S. Ct. 548, 552 (2017) (internal
quotations omitted). The videotaped interrogation
irrefutably demonstrates Petitioners did not use a single
prohibited tactic.
Lastly, this Court is uniquely positioned to resolve
the inter-circuit conf lict created by the Seventh
Circuit’s refusal to review the district court’s rejection
of Petitioners’ alternative qualified immunity defense
based upon the state court judge’s fully informed decision
to admit Koh’s videotaped statements at trial. Prior to
the Seventh Circuit’s declination of jurisdiction, several
circuit courts had held, pursuant to qualified immunity,

2
that a state trial judge’s admission of evidence breaks
the chain of causation between a police officer’s actions
and a trial-based injury provided the officers did not
corrupt that judicial decision by misleading prosecutors
or misrepresenting the state of the evidence. By refusing
to address Petitioners’ causation-based qualified immunity
argument, the Seventh Circuit placed itself in direct
conflict with the Second, Fourth, Fifth, and Eleventh
Circuits. Because the district court specifically found that
Petitioners did not mislead prosecutors or the criminal
trial court concerning the evidence against Koh, this
case presents a clean legal question and excellent vehicle
for determining a police officer’s entitlement to qualified
immunity on civil rights claims grounded in the decisions
of prosecutors and judges.
I.

There Is Undoubtedly Disarray Among The Circuit
Courts On The Scope Of Johnson Review And This
Case Presents An Excellent Vehicle To Resolve The
Confusion.

Koh claims “there is no split among the circuits about
the clear limits Johnson places on appellate jurisdiction”
and unabashedly dismisses the inter-circuit disarray as
“an invention of the petitioners’ making.” Resp. at 26-27.1
But Koh’s pronouncement flies in the face of Walton v.
Powell, 821 F.3d 1204 (10th Cir. 2016) (Gorsuch, J.) and
Judge Sutton’s thorough concurrence in Romo v. Largen,
723 F.3d 670, 686 (6th Cir. 2013), where he explained
that “nearly twenty years after Johnson, every circuit
in the country has some decisions that adopt” either
the narrow or broad reading of Johnson, and then goes
1. “Resp.” references Koh’s brief in opposition to the petition.

3
on to painstakingly identify cases from every circuit to
support both sides of the argument. Likewise, academics
have debated the proper scope of Johnson for decades.
See Arielle Herzberg, “The Right of Trial by Jury Shall
Be Preserved”: Limiting the Appealability of Summary
Judgment Orders Denying Qualified Immunity, 18 U.
Pa. J. Const. L. 305, 313 (2015) (“Appellate courts have
thus had difficulty defining the appealability standard
for qualified immunity summary judgment denials”);
Tobias Barrington Wolff, Scott v. Harris and the Future
of Summary Judgment, 15 Nev. L.J. 1351, 1380 n.111
(2015) (“Judge Sutton is correct” to identify “a challenge
to the stability of the Johnson doctrine”); Mark R. Brown,
Qualified Immunity and Interlocutory Fact Finding in
the Courts of Appeals, 114 Penn. St. L. Rev. 1317, 1318
(2010) (“Johnson’s distinction between fact and law” is
“blurred”); Lloyd C. Anderson, The Collateral Order
Doctrine: A New “Serbonian Bog” and Four Proposals
for Reform, 46 Drake L. Rev. 539, 594 (1998) (highlighting
the “unworkability of the Mitchell-Johnson rule”).
As then Circuit Judge Gorsuch explained in Walton,
the “procedural puzzles” associated with appellate review
under the Johnson framework are arduous and the Tenth
Circuit itself has “struggled…to fix the exact parameters of
the Johnson innovation”. 821 F.3d at 1207-1209. Favoring
the narrow approach advocated by Petitioners, the Walton
court explained that appellate courts are duty-bound
to determine whether the lower court’s findings of fact,
“together with all reasonable inferences they permit, fall
in or out of legal bounds.” Id. at 1210. By stark contrast,
the Seventh Circuit mandated here that Petitioners must
take “all facts and inferences in plaintiff’s favor” in order
to secure jurisdiction and resolve the question of qualified

4
immunity. App. 13a (emphasis added). And just last year,
in Barry v. O’Grady, 895 F.3d 440 (6th Cir. 2018), Judge
Sutton further expounded, this time in dissent, on the
ramifications of the overbroad approach to Johnson and
the pressing need for the Court’s intervention:
The key gloss used today (and not for the first
time) is to transform Johnson into a rule about
what the district court did, as opposed to what
the defendant officer did. No longer is the
subject-matter-jurisdiction question about what
the officer does, namely raise a legal question
about whether the plaintiff’s record evidence
creates a material issue of fact for trial. It is a
subject-matter-jurisdiction question about what
the district court did, namely drew ‘inferences’
that have become a forbidden source of appeal
because in our circuit ‘that too is a prohibited
fact-based appeal.’
Id. at 446 (emphasis in original). Judge Sutton further
explained that such an “approach gives Johnson v. Jones
a bad name, cannot be reconciled with Supreme Court
precedent, and makes little sense. If appellate courts have
no jurisdiction to review the inferences drawn by a district
court judge in resolving a claim of qualified immunity at
summary judgment, how are they supposed to apply de
novo review to the district court’s decision, as Supreme
Court decisions since Johnson do?” Id. at 445.
Undeniably, the difference between the two approaches
is dispositive of the jurisdictional issue presented by
Petitioners. Both Walton, and Judge Sutton’s opinions in
Romo and Barry, aptly illustrate the pitfalls inherent in

5
the Seventh Circuit’s broad view of Johnson. What the
Seventh Circuit described as Petitioners’ “back-door effort
to contest the facts” was in reality a front-door effort
to obtain review of the district court’s conclusion that
the inferences it drew from uncontested facts defeated
qualified immunity. App. 15a. Petitioners asked only that
the Seventh Circuit view the videotaped interrogation,
accept all of the district court’s factual findings, and
determine whether clearly established law prohibited
Petitioners’ Reid-based interrogation tactics. Contrary
to Koh’s concerted efforts to create the impression
of an unmanageable morass, that simple and limited
undertaking makes this case a perfect vehicle for finally
resolving the long-simmering inter-circuit split on the
appropriate scope of interlocutory review of the denial of
a claim to qualified immunity under Johnson.
II. The Seventh Circuit’s Declination Of Interlocutory
Review Effectively Defeated Petitioners’ Qualified
Immunity-Based Right To Avoid Trial Absent A
Clearly Established Constitutional Violation.
Koh argues that Petitioners’ qualified immunity
defense should not be reviewed until after trial because
deciding the Fifth Amendment claim will not resolve the
entire case. Resp. at 21-22. This Court squarely rejected
this exact position in Behrens v. Pelletier, 516 U.S. 299,
312 (1996), holding that the “right to immunity is a right
to immunity from certain claims, not from litigation in
general; when immunity with respect to those claims has
been finally denied, appeal must be available, and cannot
be foreclosed by the mere addition of other claims to the
suit.” (emphasis in original).

6
Moreover, the elimination of the coerced confession
claim in this case will dramatically alter the trial given
that Petitioners were granted summary judgment on the
malicious prosecution and fabrication of evidence claims.
App. 80a-88a. Without the coerced confession claim, the
trial will focus on claims related to the Kohs’ alleged false
arrests at their home (which Petitioners were not involved
in) rather than any matters arising from the criminal
prosecution.
Additionally, Koh attempts to avoid this Court’s
review by misleadingly stating that Petitioners “have
informed the district court that they do not intend to seek
a stay of the Seventh Circuit’s decision dismissing their
claims.” Resp. at 17. But Petitioners merely represented
that they would not seek a stay of the trial based on the
filing of the petition. Petitioners never suggested nor did
the district court ever state that the trial should somehow
go forward (which would not make any sense) in the event
the petition is granted. Certainly the district court will
take whatever action is required, including a stay of the
trial, in the event this Court grants the petition.
III. The District Court’s Factual Findings And The
Videotaped Interrogation Are The Only Evidence
Required To Determine Whether The Seventh
Circuit Should Have Exercised Jurisdiction To
Review Petitioners’ Entitlement To Qualified
Immunity.
Insisting this case is a poor vehicle for review, Koh
asks this Court “to reject petitioners’ Factual Background
sections, their misstatements of the record, and their
request for review predicated on their self-serving

7
factual accounts.” Resp. at 1. Initially, Koh’s attempt to
create factual challenges where none exist is the same
strategy Koh utilized in the Seventh Circuit. While Koh
now devotes three quarters of his response brief to that
same effort, the truth is this Court need only review
the interrogation video and the district court’s factual
findings to determine whether the Seventh Circuit should
have exercised jurisdiction over the denial of Petitioners’
qualified immunity defense. In no way does this Court
need to “delve into the record, weigh competing evidence,”
and decide “heavily disputed facts.” Resp. at 30.
This exact approach, where a plaintiff employs a
massive effort to create a non-existent factual dispute,
was specifically identified and rejected in Walton, where
the Tenth Circuit explained:
[I]n our recitation above and analysis below
we do just that, treating as true all the facts
the district court held a reasonable jury could
find even as we are quite confident [Plaintiff]
would dispute nearly all of them. But Johnson
does not also require this court to accept the
district court’s assessment that those facts
suffice to create a triable question on any legal
element essential to liability. That latter sort
of question is precisely the sort of question
Johnson preserves for our review.
821 F.3d at 1208 (emphasis added). 2
2. Koh’s description of Petitioners’ claim as a denial of “access
to counsel” claim because the parties dispute whether “petitioners
provided [Koh] with his Miranda rights or, instead impermissibly

8
Even more so than in Scott v. Harris, 550 U.S. 372
(2007) and Plumhoff v. Rickard, 572 U.S. 765 (2014), the
uncontested videotape fully and accurately portrays the
tactics utilized by Petitioners during Koh’s interrogation,
and Petitioners fully accepted before the Seventh Circuit
the district court’s factual findings concerning relevant
interactions that allegedly occurred off-camera. Review
of that videotape and due consideration of those factual
findings was all that was needed to permit a full evaluation
of Petitioners’ claim to qualified immunity on the coerced
confession claim. See White, 137 S. Ct. at 550 (“the
Court considers only the facts that were knowable to the
defendant officers” in determining qualified immunity).
IV. The Absence Of Any Particularized Case Law
Prohibiting Petitioners’ Interrogation Tactics
Necessitates This Court’s Review.
Koh stubbornly disregards the level of specificity
required to place reasonable police officers on notice that
their conduct was clearly unlawful, despite this Court’s
repeated warnings that “clearly established law should
not be defined at a high level of generality.” White, 137 S.
Ct. at 552 (internal quotations omitted); see also City and
Cty. of San Francisco v. Sheehan, 135 S.Ct. 1765, 1774, n.
told him that he did not need an attorney” is completely untenable.
Resp. at (i), 7. Koh has never claimed Petitioners knew the interpreter
allegedly mistranslated the Miranda warnings from English to
Korean. Moreover, at the motion to dismiss stage, Koh voluntarily
dismissed his Sixth Amendment right to counsel claim and the
district court specifically held “that Mr. Koh was not denied counsel
in violation of the Fifth Amendment.” Dkt. 82 at 11, 17. Koh’s attempt
to redefine his claim before this Court illustrates the great lengths
he will traverse in order to avoid interlocutory review.

9
3 (2015) (collecting recent Supreme Court cases reversing
denial of qualified immunity). The “dispositive question
is whether the violative nature of particular conduct is
clearly established.” Mullenix v. Luna, 136 S. Ct. 305, 308
(2015) (emphasis in original) (internal quotations omitted).
Koh’s response is devoid of any particularized case law
prohibiting Petitioners’ conduct during the interrogation.
Indeed, Koh failed to cite a single controlling decision
that prevented Graf from raising his voice, touching, or
sitting near Koh during the interrogation, or stating that
“we could be here for days and days and days.” Instead,
Koh’s weak attempt to overcome this deficiency by claiming
“[t]he petition does not point to any law that suggests
[Petitioners’ actions during the interrogation] were
constitutionally permissible” (Resp. at 32) fundamentally
distorts and reverses the well-established principle that
the burden is on the party seeking to defeat qualified
immunity to identify precedent with facts sufficiently on
point to “place…the statutory or constitutional question
beyond debate.” Ashcroft v. al-Kidd, 563 U.S. 731, 741
(2011).
Furthermore, Koh’s contention that Petitioners’
entitlement to qualified immunity is not presently before
this Court is baseless. Resp. at 30. This Court has wide
discretion and is not precluded from hearing new issues
that were not considered below. See Carlson v. Green,
446 U.S. 14, 17, n.2 (1980) (question presented in petition
for certiorari that was not heard in the district court or
court of appeals does not prevent this Court from deciding
the issue); Exxon Shipping Co. v. Baker, 554 U.S. 471,
487 (2008) (same). Koh’s reliance on Zivotofsky ex rel.
Zivotofsky v. Clinton, 566 U.S. 189, 201 (2012), badly

10
misses the mark because that case involved the absence of
a factual record on which this Court could decide the case.
Id. Here, the district court did, in fact, decide the question
of qualified immunity based upon its review of the record
and the mere fact that the Seventh Circuit chose not to do
so given its declination of jurisdiction in no way prohibits
or counsels against this Court’s consideration of the issue.
V. This Court Should Resolve The Inter-Circuit
Conflict On The Reviewability Of The Denial Of
A Qualified Immunity Assertion Premised Upon
A State Court’s Fully Informed And Untainted
Intervening Decision To Admit Evidence.
Koh contends “[t]he question of whether third-party
actors intervened to cause a violation of Koh’s rights that
was an unforeseeable result of petitioners’ own misconduct
is a question that (a) necessarily involves fact disputes;
and (b) is unrelated to the qualified-immunity question
of whether petitioners violated Koh’s clearly established
rights.” Resp at 33-34. Koh’s argument misses the mark
on both fronts. First, beyond generally pronouncing
a factual dispute, Koh does not identify any fact that
remains to be determined on whether there was any undue
influence, or withholding or misrepresenting of evidence,
relating to Petitioners’ interactions with the prosecutors
or the state court judge. Nor could he identify such a
factual dispute given the district court’s express finding
that Petitioners did not fabricate or manufacture any
evidence that was relied upon by the prosecution. App.
86a. All that remains is the purely legal issue of whether
the trial court’s admission of Koh’s confession at trial
severs the chain of causation and entitles Petitioners to
qualified immunity.

11
To that question, Koh ignored the Fifth Circuit’s
on-point holding in Murray v. Earle, 405 F. 3d 278, 285
(5th Cir. 2005). In Murray, the Fifth Circuit held that
a police officer who is forthcoming with the prosecutor
with respect to the circumstances of an interrogation is
entitled to qualified immunity from civil accountability
for the prosecutor’s independent decision to use the
statements derived from that interrogation in a criminal
proceeding. Id. In line with Murray (and the Second,
Fourth, and Eleventh Circuits), 3 the same should be true
for Petitioners, but the Seventh Circuit’s refusal to even
address this argument creates an inter-circuit conflict
that now warrants this Court’s review.
Koh’s contention that Petitioners’ causation argument
is unrelated to qualified immunity ignores the first
prong of a qualified immunity analysis, which is whether
defendants violated a constitutional right. Ashcroft, 563
U.S. at 735. Here, Petitioners did not violate Koh’s Fifth
Amendment right because it was the prosecutors’ decision
to offer and the state court judge’s decision to admit Koh’s
confession, not Petitioners’ act of obtaining the statement,
which caused the statement to be used against Koh during
his criminal trial. See Chavez v. Martinez, 538 U.S. 760,
770 (2003) (“violation of the constitutional right against
self-incrimination occurs only if one has been compelled
to be a witness against himself in a criminal case”)
(emphasis omitted). As the Second Circuit explained in
Wray v. City of New York, “[i]t is always possible that
a judge who is not misled or deceived will err; but such
an error is not reasonably foreseeable, or . . . it is not
the ‘legally cognizable result’ of an investigative abuse.
3.

See Pet. at 29-33.

12
Moreover, in the absence of evidence that [the defendant
police officer] misled or pressured the prosecution or trial
judge, he was not an ‘initial wrongdoer’” and therefore,
cannot be liable under §1983. 490 F.3d 189, 195 (2d Cir.
2007) (internal citations omitted). Accordingly, this case
presents an excellent vehicle for resolution of an intercircuit conflict on the availability of interlocutory review
from a qualified immunity denial that turns on the legal
question of whether a state court judge’s fully informed
admission of a suspect’s statement severs the chain of
causation on a Fifth Amendment coerced confession claim
asserted under §1983.
CONCLUSION
The petition for writ of certiorari should be granted.
				Respectfully submitted,
James G. Sotos
Counsel of Record
Jeffrey R. Kivetz
Daniel J. Mcginnis
The Sotos Law Firm, P.C.
141 West Jackson Boulevard,
Suite 1240A
Chicago, Illinois 60604
(630) 735-3300
jsotos@jsotoslaw.com
Counsel for Petitioners

